No. 20-1092
IN THE SUPREME COURT OF THE UNITED STATES
_________________
BRANDON JONES, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 14th day of May, 2021
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,269
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
May 14, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 14, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1092
JONES, BRANDON
USA
LUCAS ARMENT ANDERSON
ROTHMAN, SCHENIDER, SOLOWAY & STERN
100 LAFAYETTE STREET
SUITE 501
NEW YORK, NY 10013
212-571-5500
LANDERSON@RSSSLAW.COM
JOHN PATRICK ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5992
JOHN.ELWOOD@ARNOLDPORTER.COM

VIA EMAIL

